                             Office of the Inspector General

June 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Reliability of the Data Used to Measure Continuing
Disability Reviews (A-01-99-91002)


Attached is a copy of our final report. Our objective was to assess the reliability of the
Social Security Administration’s (SSA) performance data used to measure the number
of continuing disability reviews (CDR) conducted during Fiscal Year 1998. The number
of CDRs conducted during this period was one of the performance indicators developed
by SSA to meet the requirements of the Government Performance and Results Act of
1993.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




  PERFORMANCE MEASURE REVIEW:

     RELIABILITY OF THE DATA

        USED TO MEASURE

  CONTINUING DISABILITY REVIEWS


    June 2000     A-01-99-91002





AUDIT REPORT

                            Office of the Inspector General


William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Reliability of the Data Used to Measure Continuing
Disability Reviews (A-01-99-91002)


The Government Performance and Results Act (GPRA) of 1993, Public Law 103-62,
requires the Social Security Administration (SSA) to develop performance indicators
that assess the relevant service levels and outcomes of each program activity. GPRA
also calls for a description of the means employed to verify and validate the measured
values used to report on program performance. SSA has stated that the Office of the
Inspector General (OIG) plays a vital role in evaluating the data used to measure
performance. The objective of this audit was to determine the reliability of the data and
the accuracy of the figure used by SSA in Fiscal Year (FY) 1998 for the following GPRA
performance indicator:

      Number of periodic Continuing Disability Reviews (CDR)
       processed: 1,391,889 (GPRA goal: 1,245,000)


RESULTS OF REVIEW

We estimate that SSA processed 1,341,170 CDRs in FY 1998, representing 601,480
full medical reviews and 739,690 CDR mailers (see Table 1). As a result of our audit,
we determined that the CDR data provided by SSA was reliable. Nonetheless, SSA
needs to improve the documentation used to support this GPRA indicator. SSA was
unable to provide complete files containing support for the number of full medical and
mailer CDRs conducted.

          Table 1: FY 1998 CDRs Reported by SSA and Estimated by OIG

      Type of CDR            GPRA Goal           SSA Reported         OIG Estimated
 Full Medical CDRs              511,300               642,506              601,480
 CDR Mailers                    733,700               749,383              739,690
 Total                        1,245,000             1,391,889            1,341,170
Page 2 – William A. Halter


NUMBER OF FULL MEDICAL PERIODIC CDRs PERFORMED

As a result of our test of the full medical CDR cases, we estimate that SSA conducted
601,480 full medical periodic reviews during FY 1998. To test the reliability of the full
medical CDR count, we estimated the number of reviews performed in FY 1998 based
upon National Disability Determination Services System (NDDSS) data files obtained
from SSA's Office of Disability (OD). We then requested case folders related to
200 randomly selected CDRs, determined whether a full medical CDR had been
performed and properly input into the NDDSS and other information management
systems,1 and projected our sample results to the population to estimate the number of
reviews performed in FY 1998.

We obtained a full medical CDR source file from OD since SSA's information systems
were unable to provide detailed CDR data to support the FY 1998 full medical CDR
numbers reported to Congress. Even with this source file, our CDR count differed from
SSA's reported CDR count because: (1) SSA's data file contained fewer CDR cases
than anticipated; and (2) periodic CDRs were removed from our final count after we
separated "work CDRs" from periodic CDRs.

CDRs Provided in the Data File

SSA was unable to provide detailed support for the full medical CDR number reported
to Congress.2 As a result, we took the information available in the NDDSS and
segregated the data to create a population of FY 1998 CDRs. For example, the
NDDSS information contained a number of reviews that would not be included in the
periodic CDRs reported to Congress, such as “work CDRs” and childhood
redeterminations conducted under the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (see Appendix A for further details on these types of
reviews). The final population created from the NDDSS data file contained
approximately 18,000 fewer full medical CDRs than SSA reported.

Reclassified CDRs

Our review of the CDR case folders showed instances where CDRs classified as
periodic CDRs actually related to “work CDRs,” as well as “work CDRs” that were
actually periodic CDRs. After reclassifying these “work CDRs,” our full medical CDR
population decreased by about 23,000 cases. OD staff noted that some classification
problems are expected since OD may alert a field office (FO) that a periodic CDR is due
on an individual while the FO is already in the process of initiating or conducting a “work
CDR.” In such cases, the Disability Determination Services (DDS) review could be
counted as either a “work CDR” or a periodic CDR. However, if we found clear


1
  See Appendix C for more information on posting CDR results to these information management

systems.

2
  OD staff stated that a CDR-specific data base was being prepared to provide better CDR information in

future years, but not for FY 1998.

Page 3 – William A. Halter


evidence of an on-going “work CDR” among the periodic CDR cases in our sample, with
no evidence that OD released the case as a periodic CDR, we reclassified the CDR as
a “work CDR.”

NUMBER OF CDR MAILERS PROCESSED

As a result of our test of CDR mailer cases, we estimate that SSA processed 739,690
CDRs through mailers during FY 1998. We reviewed a random sample of 100 cases
from the mailer data base to test the reliability of the data file. We also reviewed 50
hard-copy mailer questionnaires to test the completeness of postings to the data file.

Random Sample from Mailer Data Base

To test the reliability of the CDR mailer count, we obtained a data file from OD that
represented 739,690 CDR mailers that led to the deferral of full medical reviews during
FY 1998. The data file contained approximately 10,000 fewer CDR mailers than
reported to Congress. OD staff told us that a complete FY 1998 year-end file of CDR
mailers was not available and, when OD attempted to recreate this file, some of the
necessary information was no longer available in the information systems. OD staff
also noted that work was underway to improve the completeness of year-end mailer
data in future years.

We randomly selected 100 mailers from the data file and requested copies of the actual
mailers from SSA to ascertain whether the individuals had responded to the mailer
during FY 1998. OD was able to provide an automated file related to each of the
selected mailers, which we then converted to a facsimile of the original mailer. We
compared the mailer documents to the Master Beneficiary Record (MBR),
Supplemental Security Record, and Continuing Disability Review Control File to
determine whether the release of the mailers had been recorded and the deferral
results were properly posted to these systems. In all 100 cases the data bases
contained evidence of the mailers’ release as well as the deferral decisions.

Hard-Copy Mailer Questionnaires

To determine whether mailer information on hard-copy questionnaires was properly
input into SSA’s computer systems, we obtained 50 CDR mailers submitted by
Disability Insurance beneficiaries and traced them through the mailer process.
Twenty-five of these mailers had been processed automatically through SSA's
computer program while the remaining 25 had been sent to the Program Service Center
in Baltimore since the mailer contained attachments or other information needing
further review. After obtaining the facsimile of the mailer from OD, we compared this to
the hard-copy of the mailer as well as information in the MBR. We found that the
facsimile of the mailer accurately represented information found on the hard-copy
questionnaire, and the mailer information had been properly posted to the MBR for
these 50 cases.
Page 4 – William A. Halter


Of the 50 mailers we reviewed, 29 resulted in deferred medical reviews, while 21 were
sent to DDS offices for full medical CDRs. As of December 1999, 19 of the 21 full
medical CDRs had been completed. The remaining two cases have been awaiting full
medical CDRs since the summer of 1998. In all of the 19 cases that went through full
medical CDRs, the DDS found the individuals to still be disabled.

CONCLUSIONS AND RECOMMENDATIONS

Our audit found that SSA exceeded its GPRA goal of 1,245,000 CDRs in FY 1998. In
addition, we determined that the CDR data provided by SSA was reliable. However,
SSA needs to improve the documentation used to support this GPRA indicator. GPRA
requires agencies to: (1) provide a basis for comparing actual program results with the
established performance goals, and (2) describe the means to be used to verify and
validate measured values. SSA was unable to provide complete files containing
support for the number of full medical and mailer CDRs conducted. As a result, we
were unable to begin the audit with the same population of periodic CDRs SSA
reported to Congress and had to perform our own validation procedures since SSA
could not provide the validation procedures used. In future periods, we recommend
that SSA:

1. 	 Maintain records to support all CDRs performed as part of its GPRA goal so that a
     third party can fully assess the reliability of SSA’s reporting; and

2. 	 Provide information on the methodology used to validate the CDRs measured for
     the performance indicator.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations and stated that
a contractor has been hired to document the CDR automated process and build the
management information controls necessary to provide a better-documented audit trail.
(See Appendix E for SSA's comments to our draft report.)

OTHER MATTERS

While reviewing cases to meet our audit objective, we also determined for each sample
case whether SSA’s data bases had been properly updated to reflect the DDS office's
decision on the cases. See Appendix C for the results of this analysis.




                                               James G. Huse, Jr.
                              APPENDICES


APPENDIX A - Background


APPENDIX B - Scope and Methodology


APPENDIX C - Other Matters


APPENDIX D - Relevant Continuing Disability Review Legislation


APPENDIX E - Agency Comments


APPENDIX F - Major Contributors to this Report


APPENDIX G - SSA Organizational Chart

                                                                             APPENDIX A


                                    BACKGROUND


Since the early 1980s, the Social Security Administration (SSA) has been required to
conduct periodic continuing disability reviews (CDR) on individuals receiving Disability
Insurance (DI) benefits. New legislation since 1994 has also required CDRs and
redeterminations on Supplemental Security Income (SSI) recipients. For example, the
Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public
Law 104-193),1 required additional CDRs and redeterminations related to the SSI
workload. Under this legislation, SSA must perform CDRs or redeterminations on:
(1) 18 year-olds using adult eligibility criteria; (2) children whose disabilities were based
on low birth-weight; and (3) all children under age 18 at least every 3 years whose
impairments are likely to improve (or, at the option of the Commissioner, recipients
whose impairments are unlikely to improve). Appendix D provides a list of relevant
legislation.

SSA reports to Congress on the CDR results in a number of ways. Under the
Government Performance and Results Act (GPRA) of 1993, SSA chose to report the
number of periodic CDRs performed annually as a performance indicator. In addition,
periodic CDRs is one of the workload measures reported to Congress to gauge SSA’s
progress in meeting workload goals proposed in its budget. Finally, SSA is required to
report to Congress the number of periodic CDRs performed each year to meet three
legislative requirements: (1) the Social Security Act requires SSA to report to Congress
annually on the results of periodic CDRs; (2) the Contract with America Advancement
Act of 1996 requires that SSA provide an annual status report on the number of
periodic CDRs performed, the cost to perform these reviews, and the expected program
cost savings that will result from these reviews; and (3) the Welfare Reform law requires
SSA to report on the number of SSI CDRs and redeterminations in an annual report on
the SSI program.

PROCESSING PERIODIC CDRs

A periodic CDR is a review routinely conducted to determine if a disabled individual is
still medically eligible to receive benefits under the DI or SSI programs. Periodic CDRs
differ from work issue CDRs in that the latter relate to reviews initiated when work
activity is reported for an individual. SSA conducts periodic CDRs using one of two
methods: full medical reviews or questionnaires (mailers).




1
    Often referred to as the Welfare Reform law.


                                                   A-1
Full Medical Reviews

Full medical reviews are primarily conducted by Disability Determination Services (DDS)
offices located in each State,2 whose administrative costs are funded by SSA. SSA’s
field offices (FO) send CDR cases to the DDS offices throughout the year for
processing. SSA initiates these CDRs for various reasons, including: (1) routine
scheduling of a medical review (this is sent out as a “direct release”);3 (2) responses to
a CDR mailer indicate that the individual’s medical condition has improved; (3) receipt
of information that an individual’s condition has improved and/or the individual has been
working (this is sent out as a “work CDR”); or (4) testing the reliability of SSA’s systems
and/or verifying assumptions through a full medical review.

SSA’s folder processing centers send the case folders (which contain background and
medical information on the individual) selected for a CDR to the appropriate FO for
development. FO personnel review the information in the case folders, interview the
individuals, and update pertinent facts in the folders prior to sending the cases to the
DDS offices for full medical reviews. DDS medical examiners, using information in the
case folders, determine if additional tests are necessary. Based on this information, a
determination is made as to whether the individual is still disabled according to current
medical criteria. The DDS office prepares a Cessation or Continuance of Disability or
Blindness Determination and Transmittal at the end of each review to provide
information on the medical review, including a decision as to whether the individual is
still disabled. An electronic version of this form is transmitted daily to the National
Disability Determination Services System (NDDSS) maintained by SSA. This data base
maintains information on all full medical CDRs conducted nationwide. See Figure A-1
for a flow chart of the CDR direct release process.




2
  DDS offices shown in SSA’s workload reports are located in all 50 States, the District of Columbia,

Guam, and Puerto Rico.

3
  SSA classifies medical impairments into one of three periodic CDR categories: medical improvement

expected (which generally necessitates a review every 6 to 18 months); medical improvement possible

(which generally necessitates a review every 3 years); and medical improvement not expected (which

generally necessitates a review every 5 to 7 years).



                                                  A-2
                         Figure A-1: Direct Release CDR Process


                                        Office of Disability
                     The Office of Disability determines which cases need to be
                     reviewed and issues alerts.




                             Office of Disability Operations/
                          Folder Service Operations/Field Offices
                     The Office of Disability Operations pulls the DI case folders
                     and Folder Service Operations or the field offices
                     pull the SSI case folders related to the cases identified
                     by the Office of Disability above. All case folders are then
                     shipped to the appropriate field office.




                                             Field Offices
                     The field office screens out cases where a CDR is not
                     required, interviews the beneficiary and updates the
                     information in the case folder. The updated case folder is
                     forwarded to the Disability Determination Services office.




                             Disability Determination Services
                     The Disability Determination Services office reviews the
                     beneficiary’s medical evidence, updates the NDDSS with a
                     decision on the case, and returns the folder to SSA.



                       Note: Work CDRs would be initiated at the field offices.



CDR Mailer Questionnaires

Another method for determining the disability status of an individual is through a CDR
mailer. CDR mailers are electronically readable forms similar to other mass
questionnaires released by SSA. The mailer asks six questions and can be sent in
English or Spanish. The mailer asks whether the beneficiaries/recipients have been
employed, attended school or training, been told by a doctor whether they can work or
not, have gone to a doctor or clinic for treatment, or have been hospitalized or had
surgery. The individual only needs to check a box to answer each of these questions.




                                                     A-3
The mailer process consists of two steps: a profiling system that uses data from SSA’s
records to determine the likelihood of medical improvement for disabled beneficiaries,
and the individuals’ responses to the mailer questionnaire. Only individuals determined
to have a low likelihood of medical improvement are sent mailers. Cases that are
profiled as having a mid-range to high likelihood of medical improvement are scheduled
for full medical CDRs rather than mailer questionnaires.

CDR mailers are printed and mailed by a private contractor according to a schedule
prepared by SSA’s Office of Disability (OD). Once completed by the
beneficiaries/recipients, the mailers are returned to SSA’s Data Operations Center
(DOC) where the scanning operation is performed (see Figure A-2 for a flowchart of
CDR mailer data processing).4


                        Figure A-2: CDR Mailer Data Processing


                                                                        Office of
             Returned                      Mailer
                           (Scanned)                                    Disability
              Mailers                     Data File                     Computer



                             CDR                        CDR or PSC
              DDS Full      Needed                     Review Needed
              Medical                   PSC: Still                       OD: Still
               CDR                      Disabled?          (Facsimile   Disabled?
                                                             to PSC)


                                                 Yes                                 Yes



                                       CDR Complete                     CDR Complete




DOC clerks review the returned mailers for completeness and identify those that are
unsigned, incomplete, or undeliverable. The majority of the mailers are processed by a
combination of optical scanning equipment and manual keying. The mailers that can
not be processed in the DOC must be referred to a program service center (PSC) for
action. Reasons that a mailer would be referred to a PSC include: the form is
damaged, the beneficiary died or moved to a foreign address, or information submitted
does not pertain to the mailer questions, but does impact the individual’s claim.



4
  The DOC also processes change of address actions, re-mails undeliverable mailers, and scans the
returned mailers.


                                                     A-4
After this initial screening, a mailer may also be referred to a PSC when it contains:
(1) lengthy remarks related to an individual’s current work or disability status;
(2) doctor’s notes or other relevant attachments; (3) indications of work activity; or
(4) remarks in a foreign language. PSC examiners will make final determinations on
these mailers.

The DOC transmits data containing the complete scanned data base to OD daily. OD
then utilizes computer programming to determine whether to: (1) defer a full medical
CDR and reset the medical diary that schedules the next CDR; or (2) refer the case for
a full medical CDR or further PSC review. In the case of a deferral, SSA sends a notice
to the beneficiary letting him or her know that no further review will be needed at that
time. If the case is referred for a full medical CDR, OD will forward the mailer
information to the appropriate PSC for processing and routing to the relevant FO. In
some cases, PSC staff will investigate the mailer questionnaire information before
making a final determination as to whether a full medical CDR is necessary.

CDR Control File

SSA has also developed a CDR tracking system, the Continuing Disability Review
Control File (CDRCF), to assist SSA in managing the increasing number of CDRs
mandated by legislation. This system is used to notify FOs that routine CDRs are due,
indicate that CDR mailers have been initiated, track the progress of the various CDRs,
and interface with other SSA systems to update the individuals’ records. The CDRCF
also shares information with the NDDSS. Although the CDRCF covered only SSI CDRs
up until the end of Fiscal Year (FY) 1999, SSA has since expanded the capability of the
system to also include DI and concurrent CDRs.5

SSA's CDR Performance Indicator

GPRA requires SSA to establish performance measures for its major business
functions. SSA chose the number of periodic CDRs performed annually as a
performance indicator under GPRA. The workload goals for FYs 1997 through 2000
are shown in Table A-1.


                  Table A-1: CDR Workloads Under GPRA (FYs 1997-2000)


   Periodic CDRs                      FY 1997               FY 1998              FY 1999   FY 2000
     Processed
GPRA Goal                             603,000            1,245,000           1,637,000     1,804,000
SSA Reported                          690,478            1,391,889           1,703,414        NA
Source: SSA’s FY 1999 Accountability Report.



5
    Concurrent cases relate to individuals receiving both DI and SSI benefits.


                                                      A-5
In its most recent Annual Report of CDRs, submitted to Congress on October 8, 1999,
SSA stated that it processed 1,391,889 periodic CDRs during FY 1998.6 SSA also
stated that the cost to process these CDRs was $462 million. In August 1996, SSA
issued a 7-year plan to eliminate the backlog of overdue CDRs by FY 2002. This plan
was updated in March 1998 to accommodate changing workloads. The CDRs
performed or planned under the latest plan through FY 2002 are shown in Figure A-3.



                         Figure A-3: SSA’s 7-Year CDR Plan

                         2,000
                         1,800
               Number of 1,600
                         1,400
                 CDRs    1,200
               Processed 1,000
                   (In     800                                            Full Medical
                           600                                            Mailer
              Thousands)   400
                           200
                             0
                                   '96 '97 '98 '99 '00 '01       '02
                                             Fiscal Year

                  Note: Numbers for FYs 1996 - 1998 represent actual counts
                  reported by SSA.




6
    The 1,391,889 CDRs consisted of 642,506 full medical CDRs and 749,383 CDR mailers.



                                                  A-6
                                                                        APPENDIX B


              SCOPE AND METHODOLOGY


The objective of this review was to assess the reliability of the Social Security
Administration’s (SSA) performance data used to measure the number of continuing
disability reviews (CDR) conducted during Fiscal Year (FY) 1998.

To test the full medical CDR count reported by SSA, we:

   •	 obtained from the Office of Disability (OD) a National Disability Determination
      Services System (NDDSS) data file containing the CDR records input during
      FY 1998;

   •	 removed Welfare Reform childhood redeterminations from the NDDSS data file
      so that it would represent work and periodic CDRs only;

   •	 stratified these CDR records, based upon NDDSS classification coding, into
      (1) “work CDRs” (stratum A), (2) multiple occurrence periodic CDRs (stratum B),
      and (3) single occurrence periodic CDRs (stratum C);

   •	 selected a random sample of 200 records (50 from stratum A, 50 from stratum B,
      and 100 records from stratum C);

   •	 requested from SSA copies of the medical files that supported the CDR
      decisions for each of these sample cases;

   •	 determined for each sample case whether: (1) the contents of the medical folder
      supported SSA's claim that a CDR had been performed and (2) the Master
      Beneficiary Record (MBR), Supplemental Security Record (SSR) and/or
      Continuing Disability Review Control File (CDRCF) had been properly updated to
      reflect the decision on the case; and

   •	 projected the confirmed periodic CDRs within each stratum to the population
      (shown on page B-3).




                                          B-1
             Figure B-1: Developing the Full Medical CDR Population

                                                                             Work CDRs
                                                                             (Stratum A)

                NDDSS                    Periodic &
                Data File                                                  Duplicate Periodic
                                         Work CDR                          CDRs (Stratum B)
                  (CDRs &
              Redeterminations)           Data File

                                                                            Single Periodic
                                                                           CDRs (Stratum C)


                            Adjusted using           Divided into three
                            Welfare Reform              Strata using
                               childhood                 Disability
                            redetermination            Determination
                               data file -                Services
                           redeterminations         classification codes
                                                       and duplicate
                                removed
                                                     entries as criteria




To test the CDR mailer count reported by SSA, we:

   •	 obtained from OD a data file containing the 739,690 Social Security numbers of
      individuals who had their CDRs deferred in FY 1998 due to mailers;

   •   randomly selected a sample of 100 records (stratum D) from this deferred group;

   •	 requested from SSA a computer-generated mailer facsimile for each selected
      record;

   •	 determined for each sample record whether: (1) a completed questionnaire had
      been recorded by SSA's computer system and (2) the MBR, SSR and/or CDRCF
      had been properly updated to reflect the decision on the case;

   •	 projected the results of our sample to the deferred CDR mailer population
      (shown on page B-3); and

   •	 selected 50 Disability Insurance mailer questionnaires from a Baltimore
      warehouse, obtained a computer-generated mailer facsimile for each sample
      item, and determined whether: (1) the information on the questionnaire matched
      the facsimile information, (2) each mailer had been properly signed, and (3) the
      MBR had been properly updated to reflect the decision on the case.




                                              B-2
In conducting this audit, we also:

      •	 reviewed a copy of SSA's FY 1998 Annual Report on CDRs to determine what
         SSA had reported for full medical CDRs and CDR mailers processed during
         FY 1998;

      •	 interviewed OD staff to determine how the CDR numbers were being used and
         reported;

      •	 contacted both Disability Determination Services and field office personnel to
         obtain updated information on sample cases where we had questions; and

      •   reviewed pertinent laws and regulations related to CDRs.


                     CDR Sample Results and Projections
                                     Full Medical Reviews                  Mailers -
                               Strata A    Strata B    Strata C            Strata D        Total
    Population Size              24,647        9,645    614,954             739,690      1,388,936
    Sample Size                       50          50         100                 100           300
    Sample Results –                   3          50          96                 100           249
    Number of confirmed
    periodic CDRs
    Projection – Periodic          1,479          9,645        590,356       739,690     1,341,170
    CDRs conducted in
    FY 1998
    Projection Lower Limit                                                               1,317,378
    Projection Upper Limit                                                               1,364,962
Note 1: The point estimate for full medical CDRs is the combined total of strata A, B and C, or
        601,480 CDRs.
Note 2: All precision figures were calculated at the 95-percent confidence level.

We did not review the internal control procedures associated with processing the CDRs.
Controls related to the NDDSS and associated full medical CDRs were the subject of
an earlier Office of the Inspector General (OIG) review.1 We also plan to review the
CDR mailer process and related controls in a future audit. We performed our review in
Baltimore, Maryland and Boston, Massachusetts between April and December 1999.
We conducted our review in accordance with generally accepted government auditing
standards.
1
 See SSA/OIG A-01-98-94003, “Performance Measure Review: Periodic Full Medical Continuing
Disability Review Data Collection,” September 1999.




                                                B-3
                                                                                     APPENDIX C


                                   OTHER MATTERS


In reviewing the continuing disability review (CDR) cases, we also determined for each
sample case whether the Master Beneficiary Record (MBR), Supplemental Security
Record (SSR) and/or the Continuing Disability Review Control File (CDRCF) had been
properly updated to reflect the Disability Determination Services (DDS) office's decision.
The MBR and SSR are the Social Security Administration's (SSA) primary data bases
for all individuals receiving Disability Insurance (DI) and Supplemental Security Income
(SSI) payments, respectively. Both the MBR and the SSR include data related to an
individual's eligibility for payments, the nature of any disability, an individual's payment
status, and other information. The CDRCF was developed to assist SSA in managing
the increasing number of CDRs and redeterminations mandated by legislation.1 This
system is used to notify field offices when a review is due, track the progress of the
review, and interface with other SSA systems to update the recipients’ records. The
MBR, SSR and CDRCF are updated with CDR information generated by the DDS office
conducting the review.2

                                                                   We found that information for 33
            Figure C-1: MBR, SSR and CDRCF                         of the 100 periodic CDR sample
               Posting of Stratum C Cases                          items in stratum C were not
                           CDRCF Missing   SSR Missing             properly posted to the MBR,
                               Data
                               5%
                                              Data
                                               2%
                                                                   SSR, and/or the CDRCF.3 For
                                                     CDRCF and     the DI cases in our sample, DDS
                                                     SSR Missing
                                                        Data
                                                                   decisions were not properly
                                                         7%        posted to the MBR in 19 cases.
                                                     MBR Missing
                                                                   Of the SSI cases, DDS decisions
                                                        Data       were not properly posted to the
                                                        17%
                                                                   SSR in 11 cases. Specifically,
         Properly Posted
                                                                   we found that DDS decisions
                                                   MBR and SSR
              67%                                  Missing Data    were either missing, incorrectly
                                                        2%
                                                                   posted, or never updated on the
                                                                   MBR and/or SSR.


1
  Program Operations Manual System DI 40503.004.

2
  Although the National Disability Determination Services System remains the primary management

information system used at the national level to monitor CDR and redetermination workloads, the proper

recording of review results on other systems, such as the MBR, SSR and the CDRCF, is important since

these systems are also used by SSA staff to review post-entitlement activities.

3
  We only discuss stratum C which represents single-occurrence periodic CDRs since this was the most

relevant stratum and represents the majority of the CDRs conducted by SSA. This stratum represents

42 DI-only cases, 44 SSI-only cases and 14 concurrent cases. A concurrent case would be posted to

both the MBR and SSR.



                                                           C-1
Our review of the sample cases also found that DDS decisions on 12 of the SSI cases
initially alerted through the CDRCF were not properly posted to the CDRCF. In
particular, information on initial decisions for 10 cases and appeals information for
another 2 cases was either missing or incorrect. Seven of these 12 cases also had
SSR posting errors, as shown in Figure C-1 under "CDRCF and SSR Missing Data."

Although the CDRCF covered only SSI CDRs and redeterminations during Fiscal Year
(FY) 1998, SSA recently expanded the capability of the system so that it also includes
DI and concurrent reviews. As a result, any uncorrected problems noted in FY 1998
may be magnified in the future since SSA has expanded the system. We believe that
incomplete CDR data in the information management systems weakens the ability of
SSA's managers to properly monitor CDRs in progress and the post-entitlement status
of DI beneficiaries and SSI recipients.




                                          C-2
                                                                                               APPENDIX D


        RELEVANT CONTINUING DISABILITY

             REVIEW LEGISLATION


                                                                                                     PROGRAM
 LEGISLATION             DATE ENACTED                           PROVISIONS                           INVOLVED
Section 221(i) of the   Act amended on           1) Report to Congress annually on the                  Disability
Social Security Act     June 9, 1980 by Public        results of periodic continuing disability      Insurance (DI)
                        Law (P.L.) 96-265; on         reviews (CDR) required to be performed
                        January 12, 1983 by           on a beneficiary at least once every
                        P.L. 97-455, and on           3 years.
                        November 10, 1988 by     2)   Report to Congress annually with                    DI
                        P.L. 100-647                  respect to determinations that the
                                                      Commissioner has made, on a State-
                                                      by-State basis, to waive the
                                                      requirement that the continuing
                                                      eligibility of disability beneficiaries with
                                                      nonpermanent disabilities be reviewed
                                                      at least once every 3 years.

Social Security         August 1994              1) Conduct medical reviews on at least                   SSI
Independence and                                      one-third of individuals attaining age-18
Program                                               each year during Fiscal Years
Improvements Act of                                   (FY) 1996 through 1998. Report to
1994 (P.L. 103-296)                                   Congress by October 1, 1998. (Note A)
                                                 2)   Conduct at least 100,000 CDRs                       SSI
                                                      annually on Supplemental Security
                                                      Income (SSI) recipients for the period
                                                      October 1995 through September 1998.
                                                      Report to Congress by October 1, 1998.

Contract with           March 1996               1) Conduct redeterminations by                         DI/SSI
America                                               January 1, 1997 for beneficiaries for
Advancement Act of                                    whom Drug Addiction and/or Alcoholism
1996 (P.L. 104-121)                                   (DAA) is a contributing factor material to
(Note B)                                              the finding of disability and who timely
                                                      appealed their termination based on
                                                      DAA.
                                                 2)   Report to Congress annually for                   DI/SSI
                                                      FYs 1996 through 2002 on the amount
                                                      of money spent on CDRs, the number
                                                      of reviews conducted by category, the
                                                      results of such reviews by program and
                                                      the estimated savings by program over
                                                      the short-, medium- and long-term.




                                                      D-1

                                                                                                        PROGRAM
  LEGISLATION              DATE ENACTED                             PROVISIONS                          INVOLVED
 Personal                August 1996                 1) Redetermine eligibility for children              SSI
 Responsibility and                                        considered disabled based on an
 Work Opportunity                                          individualized functional assessment
 Reconciliation Act of                                     and/or maladaptive behavior. (Note D)
 1996 (P.L. 104-193)                                 2)    Conduct CDRs once every 3 years for            SSI
 (Note C)                                                  recipients under age 18 whose
                                                           impairments are likely to improve (or, at
                                                           the option of the Commissioner,
                                                           recipients whose impairments are
                                                           unlikely to improve).
                                                     3)    Conduct CDRs not later than                    SSI
                                                           12 months after birth for low birth-
                                                           weight babies. (Note D)
                                                     4)    Redetermine eligibility during the             SSI
                                                                             th
                                                           individuals 18 year using the adult
                                                           initial eligibility criteria. (Note D)
                                                                                                          SSI
                                                     5)    Report to Congress annually on the
                                                           SSI program, including in the report
                                                           data on the number of redeterminations
                                                           and CDRs, and the outcomes of such
                                                           reviews.

 Balanced Budget Act     August 1997                 1) Extends current 12-month period to                SSI
 of 1997                                                   18 months for redetermining the
 (P.L. 105-33)                                             disability of children under age-18
                                                           under the new comparable severity
                                                           standard and/or maladaptive behavior
                                                           standards.
                                                     2)    Permits the Social Security                    SSI
                                                           Administration (SSA) to schedule
                                                           CDRs for low birth-weight babies at a
                                                           date after the first birthday if the
                                                           Commissioner determines the
                                                           impairment is not expected to improve
                                                           within 12 months of the child’s birth.
                                                     3)    Provides SSA with the authority to             SSI
                                                           make redeterminations of disabled
                                                           childhood recipients who attain age-18,
                                                           using the adult eligibility criteria, more
                                                           than 1 year after the date such
                                                           recipient attains age-18.


Notes:       (A) Repealed by P.L. 104-193.
             (B) The legislation also authorized funds to be spent on performing the required periodic CDRs in
                 addition to the normal workload: for FY 1996, $260 million; for FY 1997, $360 million; for FY 1998,
                 $570 million; and for FY 1999 though FY 2002, $720 million annually.
             (C) The legislation authorized $150 million in FY 1997 and $100 million in FY 1998 in additional funds
                 to assist with these mandates. The legislation also requires eligibility redeterminations for non-
                 citizens.
             (D) Provisions modified by the Balanced Budget Act of 1997.




                                                          D-2
                   APPENDIX E


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)

DRAFT REPORT, “PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE

DATA USED TO MEASURE CONTINUING DISABILITY REVIEWS”

(A-01-99-91002)



We appreciate the opportunity to comment on this report.

We are pleased OIG found that the Social Security Administration

(SSA) provided reliable data for Fiscal Year (FY) 1998 for the

Government Performance and Results Act (GPRA) indicator for the

number of periodic continuing disability reviews (CDR) processed.

Our comments on the report recommendations are provided below.


Recommendation 1


Maintain records to support all CDRs performed as part of its

GPRA goal so that a third party can fully assess the reliability

of SSA’s reporting.


Comment


We agree that the management information systems that support

SSA’s CDR process should be strengthened. Over the last year,

SSA has contracted with Lockheed Martin to document the CDR

automated processes and build the management information controls

necessary to provide a better documented audit trail. We believe

that this enhancement of our management information systems will

ensure that a third party can fully assess the reliability of

SSA’s reporting. We expect this effort to be completed by

December 31, 2000.


Recommendation 2


Provide information on the methodology used to validate the CDRs

measured for the performance indicator.


Comment


We agree. As stated in our response to the first recommendation,

we are working with Lockheed Martin to document the CDR automated

processes and build the necessary management information

controls. We believe that once this effort is completed, the

results will fully satisfy this recommended action.





                               E-2

                                                                    APPENDIX F


 MAJOR CONTRIBUTORS TO THIS REPORT


   Office of the Inspector General


   Roger J. Normand, Director, Disability Program Audit Division


   Rona Rustigian, Deputy Director


   Walter Bayer, Auditor


   Steven Kurker, Auditor


   Katie Hallock, Auditor




For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-01-99-91002.
                       APPENDIX G



SSA ORGANIZATIONAL CHART

